No. 19-930
IN THE

$Upreme Qtourt of tbe fflniteb $tates
CIC SERVICES, LLC,

Petitioner,

V.

INTERNAL REVENUE SERVICE; DEPARTMENT OF
TREASURY; UNITED STATES OF AMERICA,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I hereby certify that the Brief for

Amicus Curiae Chamber of Commerce of the United States of America in Support of
Petitioner in CIC Services, LLC v. Internal Revenue Service, No. 19-930, complies
with the word limitations, as it contains 5,142 words.
I declare under penalty of perjury that the foregoing is true and correct.

Date: February 24, 2020

